<html>
<title> - [H.A.S.C. No. 113-39] TRANSITIONING TO AFGHAN SECURITY LEAD: PROTECTING AFGHAN WOMEN?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-39] 

                    TRANSITIONING TO AFGHAN SECURITY 

                     LEAD: PROTECTING AFGHAN WOMEN? 

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 25, 2013

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

80-768 PDF                       WASHINGTON : 2013 



              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     MARTHA ROBY, Alabama, Chairman

K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
MO BROOKS, Alabama                   ROBERT E. ANDREWS, New Jersey
WALTER B. JONES, North Carolina      JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
JIM BRIDENSTINE, Oklahoma
             Christopher Bright, Professional Staff Member
                          Paul Lewis, Counsel
                          Arthur Milikh, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, April 25, 2013, Transitioning to Afghan Security Lead: 
  Protecting Afghan Women?.......................................     1

Appendix:

Thursday, April 25, 2013.........................................    35
                              ----------                              

                        THURSDAY, APRIL 25, 2013
    TRANSITIONING TO AFGHAN SECURITY LEAD: PROTECTING AFGHAN WOMEN?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Roby, Hon. Martha, a Representative from Alabama, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Lockhart, Clare, Director, Institute for State Effectiveness, and 
  Former Advisor, U.N. and Government of Afghanistan.............    20
Sanok, Stephanie, Deputy Director and Senior Fellow, Center for 
  Strategic and International Studies, International Security 
  Program........................................................    22
Sedney, David S., Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan and Central Asia, U.S. Department of 
  Defense; and MG Michael H. Shields, USA, Director, Pakistan/
  Afghanistan Coordination Cell, J-5, The Joint Staff, U.S. 
  Department of Defense..........................................     5

                                APPENDIX

Prepared Statements:

    Lockhart, Clare..............................................    51
    Roby, Hon. Martha............................................    39
    Sanok, Stephanie.............................................    58
    Sedney, David S., joint with MG Michael H. Shields...........    43
    Tsongas, Hon. Niki...........................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Andrews..................................................    71
    Ms. Duckworth................................................    72
    Mrs. Roby....................................................    71
    Ms. Speier...................................................    71
    Ms. Tsongas..................................................    71

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................    75
    TRANSITIONING TO AFGHAN SECURITY LEAD: PROTECTING AFGHAN WOMEN?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Thursday, April 25, 2013.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2118, Rayburn House Office Building, Hon. Martha Roby 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTHA ROBY, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mrs. Roby. Well, good afternoon. Sorry for the delay. It 
always seems that just when we want to get going on a 
conversation, they call votes. But it is our constitutional 
duty. But glad to be here with you. Good afternoon to each of 
you.
    I am really glad that I had the opportunity to call this 
hearing today about how the United States can ensure the safety 
and political freedom of the Afghan women after responsibility 
for that security is ceded to the Afghan Government.
    And, you know, it is not lost on anybody in this room that 
there are a number of important issues that Congress must 
consider in connection with Afghanistan: How and when should 
the United States responsibly transfer security 
responsibilities to the Afghans? What sort of residual U.S. 
forces should remain after that time? And what functions these 
forces be equipped and prepared to undertake?
    But women and girls in Afghanistan have made enormous gains 
since the United States and its allies toppled the Taliban 
government. And in Afghanistan today, women and girls I have 
seen firsthand attending schools and universities. They hold 
elected office, they are present in the military and police 
forces, and they enjoy many personal freedoms that were 
suppressed during the earlier ruthless rule.
    And while there have been many important improvements in 
safety, security, and rights of women, much more must be done, 
and the hard-won rights and progress Afghan women and girls 
have realized during the last 11 years must not disappear once 
the U.S. reduces its forces in Afghanistan. Those planning the 
security transition and determining residual force structures 
have got to keep this in mind, and I would suggest my 
colleagues here in the House of Representatives should as well.
    The safety and security of women in Afghanistan is not a 
discrete topic unmoored from the balance of our security 
considerations. Rather, the condition of Afghan women is an 
important barometer of the success of our efforts. As I say 
oftentimes, it is the litmus test as to whether or not we are 
winning the war in Afghanistan. And a safer Afghanistan with a 
functioning government responsive to its people and 
inhospitable to terrorists and extremists is better for all, 
men and women, boys and girls.
    This is a deeply personal topic to me. I have traveled to 
Afghanistan twice. The ranking member Ms. Tsongas was with me 
on our first trip, and I am planning on being back there in the 
near future. And these have been delegations of female Members 
of Congress, a bipartisan codel, where we saw firsthand the 
impressiveness of our military's efforts in Afghanistan. And I 
witnessed, as well as Ms. Tsongas, the important sacrifices 
that are being made by our men and women in uniform.
    But the unique part about the trip that the women take to 
Afghanistan is that we actually get to sit down and spend time 
with Afghan women. We have met with doctors, soldiers, elected 
officials, and girls who aspire to be in those very positions, 
and all of these women are pursuing lives that were absolutely 
unthinkable under the Taliban. We have met with wives and 
mothers who have a degree of personal freedom and independence 
previously prohibited by the Taliban and others.
    And I can tell you the reason this is so personal to me is 
because I am a wife and a mother, and I have had the right and 
the privilege in this country, this free country, to pursue an 
education, career, and public office. And I don't want Afghan 
women to face a future where their successes and security is 
jeopardized, all while keeping in mind what happens to these 
women and these little girls, again, is the litmus test as to 
what is really happening in that country, which in turn 
translates to the effect that it will have on our national 
security here at home. And I fear that if this is the case, if 
Afghanistan reverts to the Taliban's control, or a more strict 
and oppressive government, these women will absolutely suffer, 
and I believe that it will happen virtually overnight.
    As the United States continues to work with the Government 
of Afghanistan to determine the future size and role of our 
forces, the continued promotion and protection of the right of 
Afghan women and girls must not be forgotten or pushed aside.
    Again, this is an important issue, one that I know Ms. 
Tsongas has spent a lot of time on in her time in Congress, one 
that we share as a really important discussion that we would 
have in this room together. And before introducing our first 
panel, I would like to turn to the distinguished ranking member 
for any remarks that she may wish to make.
    [The prepared statement of Mrs. Roby can be found in the 
Appendix on page 39.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Tsongas. Well, thank you, Chairwoman Roby.
    I want to echo our chairwoman's remarks. And thank you all 
for being here. But I want to echo her remarks about the 
importance of this hearing. It is quite timely in a number of 
ways. Both our committee and the SASC [Senate Armed Services 
Committee] recently heard testimony from General Dunford on our 
evolving strategy to draw down from Afghanistan. I have long 
supported bringing our troops home from Afghanistan as quickly 
as possible, and was in favor of an even more expedited 
timeline than the President, but I also believe we must put in 
place a plan that does this responsibly and safely, and which 
does not sacrifice the vital gains which have been made by 
women. I think it is the one true positive that we can point 
to.
    A 2011 poll found that 86 percent of surveyed Afghan women 
were concerned that a Taliban-style government could return 
after the withdrawal of the international community. And while 
every drawdown requires tradeoffs and tough choices, I 
completely agree with what Ms. Lockhart, who will be in our 
second panel, said in her testimony that, ``women's rights are 
not a tradable good.''
    Since becoming a Member of Congress, I have had the honor 
of visiting Afghanistan four times, and my last trip was with 
Congresswoman Roby. I have been fortunate to visit in 
particular with some of our military moms who are serving 
there, female soldiers who have children back home. And we will 
be going back to Afghanistan soon, and hope to meet again with 
Afghan women as well as more military moms.
    The ever-increasing participation of women in our military 
demonstrates the important contribution women are making to our 
efforts in Afghanistan and around the world, but it also stands 
in stark contrast to the involvement that Afghan women are able 
to have in their country's public life. For a safe, stable, and 
secure Afghanistan to emerge, women must be fully included in 
Afghan society and government.
    Two years ago, we both visited a school where over 1,000 
young Afghan girls cycled through each day. It was a remarkable 
place. When we asked them, the senior members, those who were 
in the senior classes, what they wanted to be when they grew 
up, the answers we heard were ``doctor, lawyer, teacher,'' and, 
amazingly, working in the press. And we questioned that one. 
But the reality was brief exposure to education elevated those 
sight lines so quickly that they wanted exactly what our own 
daughters would want. These young women felt optimistic about 
opportunities that were previously unheard of for women in 
Afghanistan.
    Ensuring that these young girls continue to have access to 
these opportunities is not only good for the future of 
Afghanistan, it is good for the United States as well so that 
we can help a more peaceful and just future there, and the way 
in which we move forward will impact our moral authority around 
the globe. We cannot be seen as abandoning those gains.
    As we reduce our military presence in Afghanistan, the 
United States must be cognizant of how we will ensure that 
women continue to have a seat at the table and that the nascent 
gains are not abdicated. Progress has been made in some areas. 
For example, 27 percent of the Afghan Parliament is female. 
However, much more can be done in other areas, such as 
recruiting women into the Afghan National Army and police 
force, where they are very poorly represented. And I look 
forward to hearing your thoughts on that.
    In December of last year, just before we considered last 
year's defense bill, we were reminded of the tenuous position 
of women in Afghanistan when the acting head of women's affairs 
in an eastern province was assassinated as she traveled to 
work. I worked with other members of the committee for 
inclusion in the bill of a provision, section 1233 in that 
bill, which requires the Department of Defense to produce a 
plan to promote the security of Afghan women and girls as it 
withdraws from the country. It would encourage the recruitment 
of women as members of the security forces, and requires the 
Department of Defense to report back on its progress towards 
meeting these goals. I know it is not due quite yet, but I look 
forward to receiving it from the Department and hearing from 
you any preliminary observations that you can discuss. I look 
forward to our discussion.
    Thank you.
    [The prepared statement of Ms. Tsongas can be found in the 
Appendix on page 41.]
    Mrs. Roby. Thank you, Representative Tsongas.
    I want to recognize that Mrs. Davis is here, and Mr. 
Lamborn may be joining us. And before I ask for unanimous 
consent, I didn't see you come in, but I do want to point out 
that Mrs. Davis has traveled many more times than either one of 
us to Afghanistan on this CODEL [Congressional Delegation] with 
women, and she offers a unique perspective. And although not a 
member of this subcommittee, I wanted to make sure that you 
were here to offer your insight because you have worked so hard 
on this issue, and we spent a lot of hours on a plane talking 
about it. So I am glad you are here.
    So therefore I ask unanimous consent that Mrs. Davis and 
any other nonsubcommittee members, if any, be allowed to 
participate in today's hearing after all the subcommittee 
members have had an opportunity to ask questions. Is there 
objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    So today's hearing includes two panels. Our first panel, we 
will hear from two representatives of the Department of 
Defense. And in our second panel we will receive testimony from 
two outside observers.
    For the first panel we have Mr. David Sedney. He is the 
Deputy Assistant to the Secretary of Defense for Afghan policy. 
Thank you for being here. And Major General Michael H. Shields 
is the Director of the Pakistan/Afghanistan Coordination Cell 
on the Joint Staff.
    I understand, Mr. Sedney, that you have a prepared 
statement, but both Mr. Sedney and General Shields will take 
questions from Members. So I thank you both for joining us 
today, and I look forward to hearing your testimony.
    So Mr. Sedney.

  STATEMENT OF DAVID S. SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA, U.S. 
    DEPARTMENT OF DEFENSE; AND MG MICHAEL H. SHIELDS, USA, 
  DIRECTOR, PAKISTAN/AFGHANISTAN COORDINATION CELL, J-5, THE 
            JOINT STAFF, U.S. DEPARTMENT OF DEFENSE

    Mr. Sedney. Thank you very much, Madam Chairman, Ranking 
Member Tsongas, members of the subcommittee. It is something 
that I value highly, the opportunity to talk to you today on 
the issues of security in Afghanistan, security of Afghan 
women, and the role of the Department of Defense.
    First, Madam Chairman, you are exactly right in your focus 
on the security issues. The progress that has been achieved in 
Afghanistan over the last 11 years, and it is manifold, and 
women have been the greatest benefits of that progress, all 
rest on the basis of security. We are withdrawing our troops. 
Ranking Member Tsongas, as you know, we have withdrawn 33,000 
troops over the last 19 months from Afghanistan, and we 
continue. And the President said we would withdraw another 
34,000 by February of next year. That is possible because the 
Afghan security forces are stepping to the fore and taking the 
lead in security.
    As General Dunford told you, this coming fighting season 
will be the opportunity for them to really prove that as they 
are fully in the lead. If the Afghan security forces fail, then 
the progress of Afghan women will fail as well. Without 
security, none of the things that we are talking about will be 
possible. Building that security, building the Afghan Security 
Forces remains the core mission of the Department of Defense in 
Afghanistan, and will continue. And we thank you very much for 
the continued support and the funding which the Congress has 
appropriated for that effort, because without that, there would 
be no progress on Afghan women's issues or other issues in 
Afghanistan.
    As you said, Madam Chairman, progress in Afghanistan has 
been great, and greatest for women. Since 2001, Afghan women's 
health, education, political participation have all increased 
enormously, in many cases from zero, or less than zero. The 
Afghanistan Constitution has language in it that protects the 
rights of women, and the Government of Afghanistan, most 
recently at the Tokyo Conference, has reaffirmed that the human 
rights of its citizens, and particularly the equality of men 
and women, will be guaranteed and are guaranteed under the 
Afghan Constitution and its international human rights--and 
Afghanistan's human rights obligations.
    To reduce discrimination and violence against women, the 
Afghan Government has enacted laws prohibiting violence against 
women, ratified the Convention on the Elimination of All Forms 
of Discrimination Against Women, and put in place bureaucratic 
structures to implement that; however, implementation of these 
laws and ending violence against women is an area of great 
challenge.
    Afghan women still face huge obstacles, huge problems from 
violence, from discrimination throughout their society. The 
troubles of poverty, illiteracy, weak security, and poor health 
continue to afflict women disproportionately, and violence 
against women and girls remains a serious problem. As you said, 
Madam Chairman, many women; I think you will find the same 
percentage or higher when you go back this time.
    I talk to Afghan women when I go to Afghanistan, and they 
do fear that return of the Taliban; they do believe that they 
would immediately lose all the progress they have had. And in 
fact, many of the women who have benefited the most from the 
progress are the ones who are most at risk. They fear they will 
be killed as a result of participating in the opportunities 
that we have helped bring them.
    Afghan women have made progress in health and education as 
well as the political arena. You mentioned the seats in the 
National Assembly. You mentioned the seats in the National 
Assembly. There are women serving on the High Peace Council. 
And women take place in many other areas, such as the Tokyo 
Conference I mentioned, loya jirgas [grand council], and the 
various conferences about Afghanistan.
    In many ways, most importantly at a local level, women are 
gaining increased presence and visibility through the National 
Solidarity Program, and they constitute 24 percent of the 
participants in these local community development councils, 
which bring real improvements in the lives of everyday average 
Afghan women.
    Ensuring that this increased civic political participation 
continues and improves is dependent upon an effective rule of 
law. An effective rule of law is also dependent upon the 
presence of women in the justice system. Women's participation 
in the justice system raises awareness and improves 
implementation of existing Afghan laws and Afghans' 
Constitution.
    One area where there has been progress is the recruitment 
of female judges. There are now approximately 150 female 
judges, up from 50 in 2003. So a big proportional increase, but 
still a very small number. This kind of increased participation 
helps build towards a more effective rule of law.
    The main focus of the Department of Defense's efforts to 
support women's security in Afghanistan is through our 
participation in ISAF's [International Security Assistance 
Force] Afghan National Security Forces development. Improving 
the recruitment of women into the Afghan security forces, 
improving their status and treatment, and improving the 
treatment of civilian women by the Afghan security forces 
across the country are a priority for ISAF, the Afghan security 
forces, and for us.
    Both the ISAF and the Afghan ministries have large numbers 
of programs aimed at protecting women's rights and promoting 
women in the Afghan security forces. Implementation of a gender 
policy within Afghan armed forces is a long-term project, 
however. As you mentioned, Madam Chairman, women continue to 
face discrimination, even when they enter. You have met with 
the women. I am sure you have heard that not only are they 
proud to serve, but they still face problems.
    Across the Afghan security forces, there are policies and 
programs in place that attempt to address harassment and 
violence against women, but they depend upon implementation. 
Many times that implementation is on the part, almost always on 
the part, of men who are not yet fully committed. It remains a 
big challenge, but we are there and we are working on it.
    We have helped to design and execute educational programs 
and to help build those gender-implementation policies that I 
mentioned. I would say that support from Afghan leadership is 
essential to having this happen, and I would say the political 
will is present among the Afghan leaders in some cases.
    Additional things that we have done, Congress has funded 
the Task Force for Stability Operations in the Department of 
Defense budget. On May 25, the task force and the American 
University of Afghanistan will open their International Center 
for Afghan Women's Economic Development. It will be the first 
of its kind to lead and coordinate international and Afghan 
public- and private-sector efforts to advance women's roles in 
helping to lead Afghanistan's economic stabilization and 
growth. TFBSO [Task Force for Business and Stability 
Operations] has used money Congress has appropriated to fund a 
state-of-the-art facility that has already been built and will 
open on the 25th, as I mentioned, on the American University's 
campus.
    Additionally, over the last 10 years--or actually 8 years--
the Department of Defense has invested approximately $40 
million through the Commander's Emergency Response Program to 
fund more than 900 projects that specifically target the needs 
of women and girls in Afghanistan. More than a third of these 
were directly focused on improving the education of women and 
girls by repairing and building schools and women's centers, 
supplying education materials, and providing gender-appropriate 
training programs.
    However, as I said, challenges remain. Recruitment of women 
for the army, air force, and police continue to fall short of 
goals. The primary obstacle for this is very likely family-
related issues, opposition from families. Other impediments, 
such as a lack of challenging assignments for females upon 
graduation, sexual harassment and violence in the workplace, 
and difficulties regarding separate housing, toilet and bathing 
facilities, continue to be challenges.
    We are closely monitoring the security of the Afghan 
population, including in some cases especially women, Afghan 
women in transition areas. This transition that is happening in 
Afghanistan is a dynamic process. Areas are proceeding on 
different timelines. As I mentioned before, the Afghan security 
forces are taking the lead. That doesn't mean that we are 
leaving, but it means we are in an advise and assist. We have 
much less opportunity to directly intervene in those areas, but 
we will continue doing that.
    I want to stress that our commitment to this remains, our 
recognition of the challenges is there, and I look forward to 
your questions.
    [The joint prepared statement of Mr. Sedney and General 
Shields can be found in the Appendix on page 43.]
    Mrs. Roby. Thank you so much for your testimony.
    And I would like to remind the members of this committee we 
have a hard stop time. So if we can all try, and I will try to 
lead by example, to stay within our 5 minutes. We have a second 
panel right after this, and I know you all have lots of 
questions.
    I want to start with something that you just said, because 
it reminded me, and Ms. Tsongas and Ms. Davis will remember 
this, we were at the Embassy, and we were meeting with some of 
the women that were both in the Parliament and judges. And one 
of the comments that was made is, yes, there are positions for 
women available, but not at the highest level. So from a rule-
of-law perspective, you know, these female judges are saying, 
yeah, it is great, we are there, we can weigh in; however, when 
the final decision is made at the top, there is no women there. 
And a lot of what is done at the lower-level courts gets 
overturned, and we make no progress. So, I mean, do you want to 
add anything to that?
    Mr. Sedney. What I would add is that in the case of the 
Afghan security forces, in the police and the army, there are 
not only women at the enlisted ranks, but also women at the 
noncommissioned officer and officer ranks that are beginning to 
move up within the army and police systems. There are no senior 
officials in the Afghan Ministry of Defense or Ministry of 
Interior yet--and they are all people who have come up through 
the uniformed ranks--who are women now. However, they are 
making progress because they have come in and moved forward.
    I was with Secretary Hagel last month when he visited 
Afghanistan, visited the noncommissioned officer training 
center, and visited a training class for noncommissioned 
officers for senior sergeants. In that there were, I believe, 
seven Afghan women NCOs [noncommissioned officers] who were 
completing the elite-level training course for sergeants. So 
they are moving forward through the military.
    Mrs. Roby. We are just not there yet. And the problem is 
the withdrawal is happening very quickly, and, I mean, I think 
that is, you know, my concern. We have had the opportunity to 
participate in a shura [consultative council] with women. We 
hear from our commanders on the ground. And, General Shields, 
you may want to address this. We hear in our last briefing a 
year ago we were told, you know, we are ready to turn over some 
of these operations to the Afghan security forces to be able to 
handle them, but we go into a room with all women, and we are 
told exactly the opposite--and some of these women, their 
husbands are former Taliban members--please don't leave us, we 
are not ready. Can you address that?
    General Shields. Madam Chairman, thank you.
    I would say right now that ANSF [Afghan National Security 
Forces] are in the lead for probably about approximately 80 
percent of operations now. We are approaching this period 
between now and the summer where we anticipate President Karzai 
will announce Milestone 2013, which will coincide with the 
tranche 5 piece, and David mentioned the importance of 
security. ISAF recognizes that as well, and it is part of the 
OPLAN [Operations Plan], the focus on that piece.
    From a tactical perspective within ISAF, you may be 
familiar with the family support platoon, the cultural support 
teams, the female engagement teams. Those are focused outwardly 
really at the tactical level, regional command, brigade, and 
down.
    There is also unofficially an Afghan Hands program, which--
for example, I returned end of October from Afghanistan. I was 
responsible for reintegration and had females, males working 
the reintegration aspect of the APRP [Afghan Peace and 
Reintegration Program] piece. And we had females that were out 
at the edge on developing programs. But it is largely tactical, 
and it is very slow, as you mentioned.
    Mrs. Roby. Right.
    General Shields. As we transition from combat to support, 
we will see us lifting up, if you will, from kandak [battalion] 
eventually to brigade. And our ability to reach out to the 
outliers, if you will, will reduce. And so you have a valid 
concern.
    Mrs. Roby. And the Family Response Unit, that is the Afghan 
National Police organization that deals with these 
investigation of domestic abuse cases, it is my understanding 
that this is possibly going to be canceled? Or can either one 
of you respond to that? I mean, this seems to be a very 
successful--an opportunity for women to receive what they need 
in those circumstances.
    General Shields. I don't know about its long-term 
viability. So I can get back to you with that, though. I don't 
have the answer.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mrs. Roby. Okay. If you can, that would be great.
    And, you know, there is evidence, the U.N. [United Nations] 
has just come out with the fact that there is increasing 
violence against women and girls. And so I hope throughout the 
other Members' questioning we can maybe address why that is 
happening.
    But my time has expired, and I am going to be a good 
example, and I will represent the ranking member.
    Ms. Tsongas. Thank you.
    Can you talk about the recruitment process for bringing 
women into the Afghan National Security Forces? Who is in 
charge of it? Is it the Afghan Government? Is it a partnership? 
Who is in charge of it? How do you recruit, identify potential 
recruits into it? And then talk a little bit about, for 
example, do women receive equal pay, or is there discrimination 
sort of across the security forces in terms of pay?
    You have talked about some of the other issues, but I am 
basically curious as to who is in charge and how they go about 
bringing recruits, female recruits, into the security forces. 
When we visited a couple of years ago, we actually visited and 
met some pilots, young women pilots, who had been recruited and 
were being trained to fly helicopters, and were very excited to 
be doing so. But I am just curious as to who is in charge and 
how much control we have over that process.
    Mr. Sedney. In terms of who is in charge, the Afghan 
security forces, both the army and the police, have stood up 
recruitment commands over the last 3 years. They didn't have 
those before. They are in charge. So the Afghans are in charge 
of recruitment. We have provided training, advice, and 
assistance, and so we have advisers within those recruitment 
commands.
    The targets and goals that have been set for recruitment of 
women at the enlisted and officer levels are set at the 
ministerial level, and the recruitment command's task is to 
implement those. So they do go out and have efforts to 
affirmatively recruit women; however, those recruits, as I said 
in my statement, those goals are not being met right now. It is 
very hard right now to recruit women into the Afghan forces, 
and our advisers who work with the Afghans who are doing that 
say that the biggest obstacle is family pressures.
    That said, there are a number of efforts under way to try 
and increase the pool that is considered among Afghan women. 
And what I understand anecdotally--and we will certainly ask 
when you are on your trip of people who are really fully up to 
date on this can do that--younger Afghan women are showing a 
greater and greater interest in joining both the army and the 
police as they have come up through the educational system over 
the last 12 years.
    I hope that is a good enough answer. If it is not, we can 
get some more information for you. You asked about the Afghans 
who are in charge.
    Ms. Tsongas. Equality of pay.
    Mr. Sedney. Equality of pay. Yes, pay in the Afghan 
military is based upon your rank and position. There are not 
separate pay scales for men and women in the Afghan Army.
    Ms. Tsongas. And the turnover rate. Do you have any sense 
of----
    Mr. Sedney. I do not. We will get back to you on the 
attrition rate of females versus males.
    [The information referred to can be found in the Appendix 
on page 71.]
    Ms. Tsongas. Well, you would think if that many women have 
had access, greater numbers of women have had access to 
education, and we have been there long enough actually to see 
people from the earliest of years into graduating, that you are 
right, it reinforces the notion that there would be a bigger 
pool of potential candidates who have an interest.
    I am also curious, as we have drawn down our end strength, 
and we have transitioned portions of the country to control of 
the Afghan National Security Forces, how we are monitoring the 
impact on women and girls so that we are able to compare before 
and after and maybe get engaged when we see alarming things 
taking place.
    Mr. Sedney. Well, both our continuing advice and assist 
force and on the intelligence side, we monitor the full range 
of goals that we have for Afghan security forces, including 
both the performance of women in the security forces and their 
treatment of women. However, it should not come as any surprise 
as we have fewer forces, our ability to do that monitoring is 
degraded. So we are working with our colleagues in the 
Intelligence Community to try and come up with ways so that we 
can maintain a higher level of awareness as we have fewer 
people and fewer organizations to do that monitoring.
    So that is a challenge, one that we will identify in the 
next iteration of our 1230 report to the Congress. We are not 
giving up on it, though. We have a program to try and address 
it, but we don't have all the answers on that monitoring issue 
yet.
    Ms. Tsongas. I think it would be important to make sure 
that there is not a big drop in the numbers of young girls 
going to school, that access to health care facilities is not 
dramatically changed, the access to employment opportunities. 
We have met with women who, across a broad range of 
opportunities, become engaged in bringing income into their 
households. So it would not simply be about what is happening 
within the security forces, but for us to have a strong sense 
of really how well the security forces are working, it is 
really about how women continue to be integrated into a broad 
range of--the broad range of society in Afghanistan. And are 
there such metrics in place, such--are we monitoring that at 
all?
    Mr. Sedney. Yes, we are monitoring what is happening with 
respect to women and the Afghan population as a whole in terms 
of issues of education, health, and access to employment. We 
will continue to be reporting on that in the 1230 report, which 
Congress has mandated we do. But again, the adequacy of our 
collection efforts as we withdraw our forces and have less 
resources is a challenge.
    Ms. Tsongas. Is there a way we can ask the Afghan National 
Security Forces to monitor this so that they can respond?
    Mr. Sedney. We do. That is a big part of how we are doing 
that. But we have to then validate what they are collecting 
actually is accurate. And that is a big part of the challenge: 
How do you monitor what they report is accurate?
    Ms. Tsongas. Thank you.
    Mrs. Roby. Mr. Scott.
    Mr. Scott. Thank you, Madam Chairman.
    And as you know, this is a cultural issue that has been 
existing in that part of the world for a long time. I can tell 
you when I came home from Afghanistan on a CODEL that we took 
and I showed my wife the pictures, the first thing she noticed 
was that there were no little girls in the picture. There were 
little boys and other young men from 5 all the way up to 
midteens in the pictures, but no little girls. And so that is a 
cultural issue that I know we have to work through, and we are 
trying to work through there, that starts at birth and has gone 
on for generations, centuries, really.
    I guess my question, as we transition out of there, the 
mechanisms that are in place now for us to, if you will, track 
the progress that is being made with regard to women's rights 
and the ability of women to succeed in that country from 
childhood on through military service and into political 
careers, when we transition out, is that going to become an 
ISAF responsibility and priority that they are going to track, 
or is that something that we as the U.S. are going to continue 
to track? Or is that something that we are going to be subject 
to the Afghanistan Government to reporting on?
    Mr. Sedney. I would say that, first of all, it will be the 
Afghan Government that has the primary responsibility for this. 
And the standards are actually set not on the military side, 
they are set on the civilian side. And in the Tokyo meeting I 
mentioned in my testimony, where donor countries and 
Afghanistan agreed on what is called the Tokyo Mutual 
Accountability Framework, it set out standards across the 
board, from education, health, effective use of donor money, 
and just about every conceivable range of development areas 
they set out standards and they set out requirements based on 
which Afghanistan would receive future development funding.
    Now, the responsibility in the U.S. Government for 
following that is our colleagues at the Department of State and 
USAID [U.S. Agency for International Development]. We 
contribute to that, we contribute to the monitoring, but the 
lead in the U.S. Government on that is those agencies. And the 
responsibility is with the Afghan Government, but, because of 
the commitments, the billions of dollars of aid that were 
committed by the international community to Afghanistan, is 
conditioned on their meeting the goals that were set forward in 
that Mutual Accountability Framework.
    Mr. Scott. Somebody has got to collect the data, and that 
may be a better question. Who is going to collect the data 
necessary for those reports?
    And, General, I didn't mean to interrupt you. I saw that--
--
    Mr. Sedney. The data will be collected by the Afghans, but 
that will be facilitated by the existing programs throughout 
the Afghan Government.
    But going back to the point that I mentioned to Ranking 
Member Tsongas, validating what the Afghans collect is a 
challenge, but it is one that we and the international 
colleagues are very much aware of, and that the ability to do 
that will be reduced as we withdraw our military forces and our 
international colleagues reduce their military forces. And that 
is a challenge we are still looking at how we are going to do.
    Mr. Scott. You got to my point. That was the auditing of 
the data. And you used the word ``validating,'' same thing.
    General.
    General Shields. Thank you. As we draw down to 34K in 
February of 2014 and we continue on the glide slope, ISAF will 
engaged at the ministerial level as well as institutional. So 
that level of engagement will continue.
    One point I wanted to make to the Ranking Member Tsongas, 
and David mentioned it, it is not only a data quality issue, it 
is a lack of data issue, right, because we know that the 
reporting, it is not the same in every area. Certainly there is 
considerations in the east that might not be present, let's 
say, in Herat or in ``MeS'' [Mazar-e-Sharif]. It makes it more 
challenging. And you mentioned the cultural challenge that is 
prevalent.
    So it isn't just the data quality and the reporting 
quality, it is a potential lack of reporting at all from the 
cultural challenges that are presented.
    Mr. Scott. Madam Chair, I will yield the remainder of my 
time.
    Mrs. Roby. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Madam Chair.
    This is really an important subject. Thank you for the 
attentions that you are paying to it.
    I think one of the best ways to assure the fair and good 
treatment of women and girls in Afghanistan is to try to 
increase the power and influence that Afghan women have over 
various institutions within that country. They are ultimately 
going to be the guardians of this principle. And the numbers 
from the Afghan military and police are paltry and 
discouraging: 379 women in the Armed Forces and 1,455 in the 
national police according to our research.
    But I would caution us not to be unduly pessimistic about 
that. Another army waited 172 years before commissioning its 
first women officers and 194 years before a woman became a 
general officer. That is the United States Army. Now, since 
then women have certainly increased their standing and 
importance and status in the United States Army, for which we 
are very grateful, and for which our country has been very well 
served.
    Here is the question I am asking: Do we have a program 
where our women in the Armed Forces are given a special 
responsibility to help train Afghan women? The premise of my 
question is a woman who has risen to lofty positions in the 
U.S. military has to have something pretty special about her, 
because she has come through an institution that, frankly, over 
the years has not been all that hospitable to traditional women 
leadership. So a woman who makes it in the U.S. military by 
definition, I think, is a strong and capable woman.
    Do we have an institutionalized program where some of those 
women are employed to work with Afghan women not just in the 
military, but in other aspects of Afghan society?
    Mr. Sedney. Representative Andrews, just one comment on the 
figures. I think our figures are a little different, but they 
don't actually detract from your point about that they are very 
low.
    Mr. Andrews. They are still pretty paltry.
    Mr. Sedney. They are very paltry. But we will get you the 
figures we have.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Sedney. I don't want to get into a dispute about small 
numbers. But your point is correct. I don't have any 
information on what role the factors you talk to may play in 
assignments in the U.S. Army. I will have to defer that either 
to my colleague or to a later answer.
    General Shields. We will get you an answer. In my time in 
IJC [ISAF Joint Command], I wasn't aware of an 
institutionalized program to do that, but we had women who were 
doing it. So we can get back with you, sir.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Andrews. I offer this as a hypothesis. I don't know 
whether it would work, but I think it is worth some thought. 
And I think we certainly ought to talk to women leaders in our 
Armed Forces. We should talk to people in Afghanistan. We 
should talk about the cultural differences.
    But it just strikes me that we have in our midst a really 
invaluable resource that might help Afghan women learn the 
ropes in a very tough environment. And it is U.S. military 
women who have learned the ropes in a very tough environment. 
So I guess, with the chairwoman's permission, if we could ask 
if the witnesses could get back to us about their thoughts 
about this issue, you know, as to whether this would be a 
viable proposal, and, if so, how it might be implemented, and 
how we as members of the subcommittee and full committee might 
make that happen.
    Did you want to add something or----
    General Shields. I was just reinforcing. I think the issue 
of institutional we need to get back with you on. But, for 
instance, MTMA has about a seven-member team that does do that. 
We do have the female engagement team program as well. But as 
far as institutionalized perhaps at the ministerial or 
institutional level, I am not aware of it, and we will get back 
to you, sir.
    Mr. Andrews. Madam Chair, I was just saying before I yield 
back that with your permission, maybe the committee could ask 
the witnesses to evaluate this idea of women in our Armed 
Forces being given some special institutional role to help the 
Afghan women.
    Mrs. Roby. Absolutely. And I was going to tell you--I mean, 
this is your time, so if you have another question----
    Mr. Andrews. No, I am going to yield back to you when we 
are done.
    Mrs. Roby. Okay. So on our last trip--and I am going to get 
Jamie on the Committee staff to provide you with the specific 
information--and it may not be an institutional program, but it 
was certainly something that was being applied in certain 
provinces, particularly when we met with these women and had 
the shura, there were--because the women cannot be in a room 
alone with men, there were female officers that were assigned 
to working with this specific group of women in this province. 
And I know Mrs. Davis has actually met with some of these women 
on multiple occasions, the Afghan women. But our military 
personnel, the women that have been working with them, had been 
working with them for an extended amount of time, working 
through some of the issues that we are talking about here 
today. So I don't know if it has a name or if it is a specific 
program, but I know that it is happening because we saw it 
firsthand.
    But absolutely, I would like to continue to work with DOD 
[Department of Defense] and this Committee in particular as we 
return to Afghanistan to see if any of these things are being 
put in place, because I think that, Mr. Andrews, you make a 
very good point that we have the resources in place already, 
why not use them?
    Mr. Andrews. And the hearing itself is evidence that good 
leadership from women can be a successful event. So thank you 
very much, Madam Chair.
    Mrs. Roby. Ms. Speier.
    Ms. Speier. Thank you, Madam Chair.
    Thank you for your testimony here this afternoon.
    I want to start by reading from the Small Wars Journal an 
article by Vanita Datta that has been provided to all the 
Members.
    ``July 2012 on a hillside in Afghanistan's Parwan 
Province--the sentence of death for adultery is read out. A 
bearded man aims a rifle and fires nine bullets--claiming the 
life of a still, squatting figure in a blue burqa. This, 
accompanied by cheers of men, ringing the hill side, brings 
home a stark reality of the defenselessness and the oppression 
of women in Afghanistan. We learn later that Najiba was the 
woman in the blue burqa.''
    The U.N. records for 2012 show that there were 300 women 
killed in Afghanistan in 2012, and 560 injured, a 20-percent 
increase over 2011. So, we are there, and this is happening. 
What is going to happen when we are not there? And I guess my 
overriding question is that, without stealing the thunder of 
one of our witnesses on our second panel, Ms. Sanok, her 
comment is, ``Most incidents are not linked to insurgent 
violence in this nation. Rather, attacks are linked to domestic 
violence, tradition, culture of the country. Because this is a 
problem within Afghan society, it will be difficult, if not 
impossible, for U.S. or other international forces to address 
it adequately.''
    I am really concerned about these women. I think everyone 
on this panel is very concerned about these women. I would love 
to see our Afghan forces be more representative of the women in 
the country. I don't know that it is going to happen. I don't 
know what you are going to do in the next 9 months is going to 
change that number of 1,500 to 3,000. But I think there is 
something we can do, and that is to create a refugee status for 
any Afghan woman who wants to leave the country and is seeking 
asylum in our country, and that we should put in place now a 
procedure whereby they can be informed of that opportunity and 
be granted that opportunity so that we can at least save the 
lives of those who are not so embedded in the culture and want 
to find a way to free themselves of what I believe will become, 
without a question, more oppressive than what is going on right 
now under our noses with us there present.
    Your comments.
    Mr. Sedney. Thank you, Representative Speier. I share your 
concerns, we at the Department of Defense do, and I know that 
our men and women in uniform who have served in Afghanistan 
share them as well.
    A couple of comments. I am familiar with the U.N. report 
that you mentioned; however, in discussing that with people who 
are familiar with the statistics, yes, there is an increase in 
reported violence against women, but that increase in reports 
came about primarily because of greater emphasis on getting the 
reporting.
    I would agree that the number of unreported incidents of 
violence against women is much greater than those that are 
reported. The reason that there was a greater number in 
particular areas, including Herat, there were strong efforts to 
get more women to report violence, and efforts by the police to 
accept those reports, because there is a problem both in 
getting reports and having the authorities being willing to 
accept them.
    So therefore, I do not agree that there was an increase--
with the statistics, because there are no reliable statistics 
on overall violence against women that it increased while we 
were there. In fact, repeatedly anecdotally talking to Afghan 
women over the 11 years that I have been working on 
Afghanistan, they say that violence has been a problem, as you 
said, continues to be a problem, comes out of a host of social, 
cultural, historical factors, but they universally say that 
things were worse before.
    Ms. Speier. I don't dispute that.
    Mr. Sedney. And they say it is getting better. So 
preserving those gains and keeping in place the prospect of 
increasing those, I think, is very important.
    Ms. Speier. I guess that is my problem. I think we are 
whistling in the wind if we think that once we recede from that 
country, that we are going to be able to have as much of an 
impact or more of an impact than we have right now. And while I 
think there has been less violence, it has not done away with 
it. And, you know, we can dispute the numbers, but whether it 
is, you know, an increase of 20 percent or 10 percent or not an 
increase, 300 deaths and 560 injured is a very painful 
statistic, I think.
    Mr. Sedney. It is a painful statistic, and unfortunately 
the reality----
    Ms. Speier. My time is already almost up. I want to get to 
this asylum issue and whether we are doing anything to try and 
create that opportunity for women.
    Mr. Sedney. Again, that is a question I will raise with my 
colleagues at the Department of State, which is charged with 
asylum policy issues. I apologize for not being able to comment 
on it. But I will definitely talk to my colleagues at the 
Department of State this afternoon and mention this, as I am 
sure they will hear about it in the news as well.
    [The information referred to can be found in the Appendix 
on page 71.]
    Ms. Speier. Thank you.
    Mrs. Roby. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Madam Chair.
    I share my colleague Ms. Speier's fears, and I am sure the 
fears of every Member of this committee, that once we leave, 
with the potential resurgence of the Taliban, that the Afghan 
women have the most to lose.
    So my question is what are we doing to make sure that we 
have enough Afghan women trained in the national police and the 
national army to protect the women who are playing such an 
important role in stabilizing insecure areas, and that these 
women do have someone that they can go report instances of 
abuse and violence to?
    And specifically what I would like to know is, you know, 
one of the things about putting women in these roles is that 
they have to have real roles, and they have to be in real 
leadership positions. That means they have to have some rank on 
them. If you put in an Afghan policewoman or a security force 
woman, and she has got to report to a man who is abusing her, 
or she is experiencing sexual harassment in her own workplace, 
she is not going to be effective. So what are we doing to make 
sure that the real women leaders of the Afghan women's security 
forces and police actually have the power behind their 
positions and, perhaps more importantly, the funding that is 
dedicated specifically to them that will not be taken away?
    Mr. Sedney. What we have been doing is to preserve those 
gains from the women's--first of all, building the Afghan 
security forces overall, because without overall security in 
the country, there won't be security for women either.
    Secondly, on the specific issues relating to women, we have 
put in place programs first to build into the Afghan Ministry 
of Defense and Ministry of Interior recruiting plans, personnel 
plans, goals for women at every level, from the entry level up 
through the NCO and officer level. And we have worked with them 
in their recruiting efforts to help them, because this really 
has to be an Afghan task, to recruit women, train women, and 
put them into positions where they can do that.
    As I mentioned earlier in the statement, those efforts are 
not where we would like them to be. They are not where many of 
our Afghan colleagues, male and female, would like them to be. 
They are about in some cases 30, 40, 50 percent short of the 
goals that the Afghans themselves set for them.
    The obstacles to Afghan women both joining the military and 
the police and remaining in the military and police are myriad 
both in their own families and in the institutions they are in, 
just as you described. There has been progress. It has been 
very paltry progress, as Representative Andrews pointed out, 
but it is significant percentagewise, but still too small 
numerically.
    You asked about guarantees. I am sorry, Representative 
Duckworth, there is no guarantee here. There are, I think, 
prospects for it, and that prospects are going to depend upon 
our continued commitment, our continued funding, as you 
mentioned, but most of all on the success of the Afghan 
security forces themselves to provide a basis for that.
    Ms. Duckworth. I am not sure that I am asking for a 
guarantee. I just want to know what strong mechanisms are in 
place other than general improvement of the Afghan National 
Security Forces.
    Let's talk about the funding issue. What would prevent you 
from actually--in the funding that we provide to help them as 
they are developing and growing, that we have funds that are 
specifically set aside specifically to be used for the 
recruiting, retention, and the support of Afghan women in the 
security forces and the police forces, and that we put a woman 
in charge of those funds at the very highest levels of their 
military and police leadership?
    Mr. Sedney. In my experience in dealing with this for a 
number of years, the issue of funds, availability of funds, has 
not been a problem. The issues are the cultural, social, 
political practices and beliefs of the people, and that is 
something that changes as they change.
    The effort to have goals set by the Ministry of Defense and 
Ministry of Interior set for the number of women in the forces, 
number of women officers, and getting that to be a priority in 
recruiting, that was something that was an effort by us and by 
our international colleagues, because I will say that our 
international colleagues, other countries, have similar strong 
policies in this area. It took a lot of work. It has been 
successful.
    I think in the area of policies and priorities and in 
funding, that is--and other countries are actually providing 
funding in this area as well--that is not the problem. The 
problem is the overall situation in society.
    Again, the progress is there in percentagewise basis, but 
it is just really hard. Our ability to help does depend on the 
number of people that we have who are there to help, the number 
of overall forces we have, the ability of our forces to assist 
at different levels in the Afghan military, and that, of 
course, is declining.
    Ms. Duckworth. Madam Chair, I am over time, but I would 
like to request that the witness answer my question on the 
putting females at the very highest levels of the Afghan 
security forces and having them control the dollars in writing.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mrs. Roby. No objection to that. And please provide that.
    And Mrs. Davis.
    Mrs. Davis. Thank you, Madam Chair.
    And thank you for being here. I am sorry I am going to have 
to leave for a little bit, but I am really looking forward to 
the second panel as well.
    To Congresswoman Duckworth's point, I believe we were 
trying to fence off somewhere in the neighborhood of about $85 
million to dedicate towards the development of women within the 
police and within the Afghan National Army. And I recognize, as 
you all do, that it is one thing to have the money dedicated; 
it is another to have people coming forward.
    I think there is a recognition that the best recruiters are 
going to be those women who have established themselves within 
the services, and I certainly would be hopeful that they would 
also be willing to do that and interested in doing that.
    And the other piece, and I think that my colleague 
mentioned this, Mr. Andrews, that not just our women who are in 
the military and the police department, but also in neighbors 
who have faced some similar obstacles from the women in 
Afghanistan. And perhaps that is an area that we haven't 
developed as well as we should. So I think working with ISAF 
and some of our partners, that is something that we certainly 
can ask from them, I would think, as we move on out and they 
have the commitment as well.
    I wonder if you could just very quickly, you know, we have 
really grappled with this, because we know that there are 
cultural issues, imposing our own values, all those things. But 
the reality is that we are talking about human needs here, and 
I don't think that anyone believes that children should be 
abused and killed, and women throughout the country for that 
matter, without people speaking out. And one of the things that 
I have found that is a little difficult is that when we have 
traveled, we know that talking about women even with our own 
military--and there have been a number of people that have been 
so committed to this, and I really appreciate that--but as if 
this is sort of the nice thing to do, but not the important 
thing to do in terms of governance for Afghanistan. And I just 
would like to see that as we move forward, reports are 
important, and I think we need to have data, even though 
sometimes getting that data is difficult, but the other issue 
is the visibility.
    If we can continue as we are asked publicly about what is 
happening and how things--whether we are maintaining the 
progress that has been made, we can really move to these issues 
and talk about them very publicly and encourage our colleagues 
as well. What do you think? I mean, there are certain things--
we don't have a lot of leverage here, right, in changing some 
of the actions on the ground, but where is it that we might 
have some?
    Mr. Sedney. I will ask my colleague General Shields to 
comment, as well, Representative Davis.
    First of all, on the issue of funding and fencing off 
funding, I am firstly going to be very cautious about that when 
we are also facing major cuts to our overall budget, 
specifically cuts to the Afghan security forces. So in the end 
you can fence off all you want, but if there is no money, there 
is no money.
    So I am very concerned about the funding for the Afghan 
security forces, appreciate what Congress has done, but the 
recent actions to cut funding do put this overall enterprise, 
including the issue of women, at risk. And if you don't have 
overall security, it won't matter how much money you set aside 
for women, because if the whole country falls apart because the 
security forces don't work, as Madam Chairman said, then those 
things won't make any difference.
    On your second part about leverage, I think we have a huge 
amount of leverage actually. And a big part of it actually is 
what a number of your colleagues mentioned earlier about the 
interaction of our forces, both men and women, with the Afghan 
military; the training that people come here for and receive; 
their exposure to a military, which, regardless what the past 
was, is today a really a model for not just Afghanistan, but 
many other militaries in terms of the integration of men and 
women.
    Mrs. Davis. May I ask, are we seeing that also in the 
police?
    Mr. Sedney. We see it less in the police because we have 
less training. Our military doesn't do policing. So we can 
bring Afghan military into our military schooling; we don't 
have a national police force. I think our international 
colleagues that do have national police forces, Germany, France 
and others, the training they have given to the police provides 
some of that modeling and leverage.
    Mrs. Davis. All right. I am glad to hear you say that. We 
just need to work with it more.
    Ms. Roby. Thank you so much.
    And, gentlemen, thank you so much for your testimony today 
and your willingness to answer our questions. And I should have 
said this at the outset, on behalf of my family, I want to tell 
you thank you for your service to our country, and thank you 
for the many sacrifices that you have made in your career, but 
also as it relates to our military personnel and our men and 
women in uniform in Afghanistan. So thank you for that. Thank 
you for being here today.
    And I will excuse our first panel, and I will invite our 
second panel to come to the witness table. And as they are 
getting seated, I will introduce the witnesses.
    Mrs. Clare Lockhart is cofounder and director of the 
Institute for State Effectiveness. Among other related 
activities, the institute is a nongovernment organization that 
advises on the political development of nascent countries. The 
institute has been involved in helping to devise and implement 
many policies in Afghanistan following the expulsion of the 
Taliban. Then and previously when working when United Nations 
and the World Bank, Mrs. Lockhart lived in Afghanistan. So 
thank you for being here.
    Mrs. Stephanie Sanok--I want to make sure I said that 
correctly--is the deputy director of the International Security 
Program at the Center for Strategic and International Studies. 
Her research interests include U.S. Government stabilization 
and reconstruction efforts and transitions of postconflict 
responsibilities. From 2005 to 2008, Ms. Sanok was a 
professional staff member on this committee. So thank you for 
being here as well.
    So, Ms. Lockhart, I will begin with you.

  STATEMENT OF CLARE LOCKHART, DIRECTOR, INSTITUTE FOR STATE 
   EFFECTIVENESS, AND FORMER ADVISOR, U.N. AND GOVERNMENT OF 
                          AFGHANISTAN

    Ms. Lockhart. Thank you for the opportunity to testify 
today.
    The factors and conditions that will protect Afghan women 
are to large degree the same as those which will protect any 
Afghan citizen, man, woman, or child, in the post-2014 era, and 
line the resilience of the state across the security and 
nonsecurity institutions that can protect its citizens from 
threats. And the goal here is emphatically not Switzerland--
Afghanistan will be a developing country for a very long time 
to come--but the provision of basic protections and services 
that citizens anywhere in the world can and should reasonably 
expect.
    It emerges again and again in interviews with Afghan women 
that their top concern is their uncertainty as to what will 
happen post-2014. The more that they can understand the world 
in general and the U.S. in particular will not abandon 
Afghanistan again to a civil war and a vacuum, likely to be 
filled by warlordism and extremism, but will keep to its 
commitments, including in a partnership agreement to 
Afghanistan's fundamental security, the more confidence 
citizens will have, and the more that they will work in their 
own ways to secure that future.
    The media has exhibited something of a bias towards 
reporting the negative trends rather than the opportunities in 
Afghanistan, and it goes without saying that the challenges 
have been enormous and the lost opportunities to get things 
right at dramatically lower costs in blood and treasure tragic. 
Afghanistan in its early recovery was going in the right 
direction after 2001, but some inexpensive measures were 
ignored, leading to unwinding of the fragile gains.
    However, real gains, as you have recognized, have been made 
over the last decade, and the society has changed beyond 
recognition. Figures about children in school, improvements in 
health, self-run coverage are well known. Less obvious are the 
attitudinal shifts as a new generation who have grown up in 
relative peace and freedom have come of age, large numbers of 
whom are passionately engaged in creating a future Afghanistan 
marked by tolerance, accountability in governance, and 
opportunity for men and women in this generation.
    And contrary to popular perception outside of Afghanistan, 
equal rights for women does enjoy considerable support within 
Afghanistan. Asia Foundation, surveying Afghan people in 2012, 
documented that 83 percent of respondents, men and women, 
believed equal rights under the law regardless of gender to be 
important, and 87 percent of respondents agreed that women 
should have equal opportunities to men in education. So I think 
there is perhaps more progress than we think.
    Looking forward, security for Afghan women to exercise 
their fundamental rights and protect these hard-won gains will 
rest first and foremost on the fundamental pillar of security. 
Can the Afghan State defend its citizens from the threat to 
state survival and to its citizens, and those threats being the 
insurgency, criminality, and forms of terrorism and extremism, 
as well as external threats from neighbors and political 
instability.
    The capability of the Afghan forces is fundamental to 
meeting these threats. The Afghan forces are moving in the 
right direction in encouraging roles, encouraging ways, 
continuing a commitment to support these forces, and perhaps 
considering the option of further resources held in reserve for 
use if certain contingencies arise will be really the critical 
security to a bridge--a bridge to a time when Afghanistan can 
secure itself.
    Security for women is also important to be considered in 
the sense of human security, and here I would highlight two 
things: First, the professionalization of security forces. So, 
attention to the ethos, spirit, and standards of ethics and 
integrity so that the men serving respect women; and second, 
continued attention to the decriminalization of the state. The 
last decade has coincided with the increase in power, wealth, 
and autonomy of moneylords, warlords, or strongmen, and 
continuing to focus on decriminalization of the state and 
society will be essential for the protection of women.
    As is widely acknowledged, security itself is determined to 
a considerable degree by the political process, and a political 
process can be well designed or counterproductive to peace and 
stability. I think there is a risk that a rush to cut a deal 
could represent several steps backwards for peace and 
stability. And this is where, as I wrote in testimony, that 
women's rights may be considered--there's a risk that they may 
be considered a tradable good.
    A very wise Afghan leader from the South once said that 
Afghanistan is like any other society: We have 4 percent thugs, 
1 percent extremists, and 95 percent ordinary people. And the 
problem comes when the foreigners try to cut a deal between the 
4 percent and the 1 percent over the heads of the 95 percent. 
And he said, the sooner you realize that it is actually the 95 
percent who are your best allies and the best chance of 
realizing peace and security for you and for us, the more 
stable and secure we all will be.
    And I think with that very much in mind, I think we are at 
something of a crossroads, and the type of political process to 
be pursued as transition, as withdrawal takes place is of 
fundamental importance. And here I think three pillars of a 
political process are important: First, attention to the 
succession. What type of regime will come after President 
Karzai's regime in 2014 is critical, and, therefore, attention 
both to the process and the outcomes of election is the first 
priority. The second is a dialogue within, between Afghan 
citizens, something of a national dialogue, on how they agree 
to be governed within the same political entity. And then the 
third component is attention to Pakistan, and really an ask of 
Pakistan that they cease interference in the internal affairs 
of their neighbor.
    Lastly, and finally, and also important, programs in the 
social and economic area can play an enormous role. As you have 
recognized, women have made enormous strides in their role and 
status: more than 25 percent of seats in Parliament; 140,000 
women have been elected and have served on community 
development councils through the National Solidarity Program, 
which Congress was itself instrumental in ensuring the 
commitments from the administration to support.
    Continuing to support these types of programs that will 
underpin these opportunities will be essential for preserving 
the gains. The how-to of implementation matters. We know, it is 
widely acknowledged, that much aid expenditure has been badly 
designed and delivered. Lessons must be learned.
    But there are programs that work at scale and can work for 
considerably less resources than those that have been expended, 
and I will mention just briefly three of these. First, the 
National Solidarity Program that operates now over more than 
30,000 villages and provides in the rural areas opportunities 
for women to participate, to make decisions, and have seen 
remarkable improvements across health, education, and other 
indicators.
    Second, education of both girls and boys, the foundation 
for creating equality of opportunity. We see millions of 
children in primary school, but secondary, tertiary, vocational 
sectors have been woefully neglected. And there is still no map 
that I know of that can show us how many health workers, 
accountants, engineers the country has or are needed, and there 
is still time to produce that.
    And then, finally, economic opportunity. Women have 
traditionally gained empowerment in many traditional societies 
in the economic space through opportunities to work in, to own 
their own businesses, and to participate in the economy.
    In closing, Afghanistan has made considerable progress 
despite many wrong turnings and setbacks. The institutions are 
taking root. The next generation is preparing to lead and 
manage the country. Providing the commitments and confidence to 
make transition work is the course of action most likely to 
meet the security interests of citizens of both countries.
    [The prepared statement of Ms. Lockhart can be found in the 
Appendix on page 51.]
    Ms. Roby. Thank you.
    Ms. Sanok.

   STATEMENT OF STEPHANIE SANOK, DEPUTY DIRECTOR AND SENIOR 
    FELLOW, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                 INTERNATIONAL SECURITY PROGRAM

    Ms. Sanok. Madam Chairman, Ranking Member Tsongas, other 
members of the subcommittee, thank you for inviting me to 
discuss the protection of Afghan women and girls. It is a 
little disconcerting to be on this side of the table, but I 
thank you for the opportunity to be here. I would ask that my 
written statement be entered into the record, and, in the 
interest of time, just offer a few brief opening remarks based 
on my research into gender-based violence in Afghanistan.
    So this issue is not a new one. For more than a decade, 
many Afghan Government officials and local community leaders 
have worked alongside U.S. and international partners on key 
reforms to help safeguard women's rights, opportunities, and 
security, and it is certainly true that circumstances for women 
in Afghanistan--education, employment, voting rights, political 
participation--have improved since 2001. But I would like to 
focus my testimony on the physical security of Afghan women and 
girls as a necessary condition for allowing them to pursue 
those other opportunities.
    Over the course of the last few years, I have made several 
trips to Afghanistan, and I have spoken to many women who own 
or run businesses in that country. To a one, they have all 
indicated their desire to leave before December 2014. They cite 
implications, what they see coming across in terms of losing 
educational and employment opportunities, but their top reason 
they cite for leaving is physical security.
    So let us take a look at what physical security has looked 
like in Afghanistan. We may talk about 20-percent increases, 
10-percent increases in violence, but if we can just stick to 
the numbers of reported incidents. Late last year, the United 
Nations Assistance Mission to Afghanistan released an updated 
critique of Afghan efforts to protect Afghan women and girls 
using data from 22 provinces from October 2011 to September 
2012. In that yearlong timeframe, battery and laceration was 
the most prevalent type of case reported with some 896 
complaints; 95 ``honor killings'' were registered; almost 200 
incidents of rape were registered or filed; forced self-
immolation and forced underage bought or exchange marriages 
were also prevalent. These types of incidents are, of course, 
are underreported, mostly due to cultural and social norms, 
customary and religious beliefs, and threats to life.
    What is abundantly clear is that there is a problem. 
Victims don't trust the police, prosecutors, or departments of 
women's affairs in the provinces. There is a lack of shelters, 
civil society organizations, and women's rights organizations. 
And there is a lack of knowledge about their legal protections 
and their mechanisms.
    On the other side of the equation, there is also evidence 
that police, prosecutors, and courts lack transparency and 
accountability. They purposely delay processing cases, they 
misplace evidence on purpose, and fail to conduct adequate 
investigations.
    Finally, part of the underlying problem is the cumbersome, 
nonstandardized process for submitting a complaint. This 
process, which can refer victims to offices that simply don't 
have jurisdiction, may result in referral after referral, 
bouncing victims around to multiple offices over a protracted 
and certainly disheartening period of time.
    Regarding security and access to justice, the most 
promising U.S. Government programs address the systemic rule-
of-law issues, and we heard Secretary Sedney refer to these. 
These programs aim to increase involvement of women as police 
officers, prosecutors, defense attorneys, judges, other 
positions along the spectrum of justice. But to reinforce the 
positive steps that have been made, the U.S. Government, 
international community, and Afghan leaders may want to focus 
increased attention on capability- and capacity-building to 
help mitigate discrimination against women, address 
bureaucratic hindrances, and persuade victims to access the 
justice system.
    In my opinion, programs should emphasize outreach, working 
with civil society and local leaders to raise awareness of 
options available to victims and of the potential consequences 
for perpetrators. As my colleague Ms. Lockhart has mentioned, 
outreach efforts should include work with Afghan men and boys. 
In my opinion, we need to use terms that resonate with them to 
develop greater sensitivity as to why this is a real and 
preventable problem that will hurt all elements of Afghan 
society going forward and prevent a peaceful, stable 
Afghanistan. I think a lot of our programs to date have really 
focused on educating women. I think we are really in a good 
opportunity to educate the men and boys about why this is an 
issue as well.
    In addition, and this I know sounds incredibly sexy and 
something you all want to do, but the programs need to reform 
bureaucratic processes. Whether you clarify jurisdiction, 
streamline documentation, improve custody of evidence, it is 
these day-to-day bureaucratic problems that are forcing women 
to abandon their complaints because they are getting bounced 
around from office to office.
    As Representative Speier noted, I believe this is a problem 
within the Afghan society that is difficult, if not impossible, 
for U.S. or international military forces to address. For 
example, there is a field manual for counterinsurgency under 
which we are operating in Afghanistan right now, and that field 
manual emphasizes cultural sensitivity whereas our soldiers 
need to be sensitive to their culture. And I agree with that, 
but there needs to be a balance between--there is an inherent 
tension between observing their culture and excusing some awful 
practices that are occurring within that culture. How do you 
balance that tension? Is that the right field manual under 
which to operate going forward? And I would be happy to discuss 
the implications of the situation on a ``residual U.S. force'' 
going forward after 2014.
    But with that, I would like to conclude my remarks and open 
myself up to questions.
    [The prepared statement of Ms. Sanok can be found in the 
Appendix on page 58.]
    Ms. Roby. Thank you so much. And, again, thank you to both 
of you for being here.
    And there is so much that I want to say and ask. And I am 
going to try to, again, be a good example because we have to 
end at 3:45. So I want every Member that is here to have an 
opportunity to ask their questions.
    We have had some extraordinary experiences ourselves, some 
of the members of the subcommittee, in Afghanistan, including 
the rule-of-law issues, going to a prison where the women who 
were the very victims themselves of the things that you have 
talked about are actually the ones locked up with their 
children because their husband, in turn, accused them of a 
crime, and they didn't have an opportunity in that courtroom to 
defend themselves through the processes of law that exist in 
Afghanistan. And we saw that firsthand.
    But I wanted to ask Ms. Lockhart first, how great are these 
risks? I mean, let us try to quantify it. How great is the risk 
that these Afghan women are going to lose their rights once 
we--that they have gotten since we have been there, but once we 
leave?
    Ms. Lockhart. Thank you for the question. I think the risks 
are grave. And to put them in an order, I think the risk to the 
stability, which could then result in some form of collapse or 
anarchy, is actually that the succession, the 2014 political 
transition, is not handled appropriately. And therefore my 
recommendation that the elections process is a moment of the 
greatest risk to the country, and, therefore, the stability is 
very severe.
    Many of my Afghan friends, both men and women, think that 
actually the risk of return of an extreme form of government is 
perhaps less than many might think just because the society has 
changed so fundamentally. But I do think the risk is still 
there. I also think the opportunities are there, and many of 
you have cited these. I think that the media has tended to 
report much more in the negative and to ignore the real 
opportunities, that the country is ready to govern itself and 
to secure itself with continued commitment.
    Ms. Roby. I mean, I think that is great to hear. I have 
been much more pessimistic in my experiences in what I have 
heard, and looking forward to returning and gaining more 
experience. But as you know, when we go, we don't get to stay 
very long, and so that is why we are drawing from your 
experiences.
    What do you think the warning signs are that we need to 
look for, and once we see them, how does the United States 
respond based on our drawdown? Ms. Lockhart, you can go, and 
then, Ms. Sanok, I have a question for you as well.
    Ms. Lockhart. I think, as your colleagues have also 
recognized, many of the warning signals are already there. And 
I think we are seeing this in increased numbers of applications 
for asylum at the moment, and it is to do with the lack of 
confidence in the future because of the extent of the 
uncertainty as to what 2014 means.
    So, I think we can see it through applications--those 
trying to leave the country, we can see an incidence of 
violence in particular parts of the country. But I think the 
real test will come as transition takes place, as the election 
takes place, so we won't know until 2014, which, again, is why 
I would recommend some kind of contingencies to be put in place 
through that very critical time, through 2014 and 2015. And if 
some reserve capabilities or commitments can be made, this 
could make a critical difference to that continued confidence.
    Mrs. Roby. Absolutely, and I hear what you are saying, and 
I am hopeful that others will hear it as well, because I think 
it is vital to the success in protecting these women, but also, 
as I have indicated on several occasions, is a litmus test to 
our success there as well, protecting our own national 
security. But I am deeply troubled by what might lay ahead, 
and, you know, we have a--I mean, I feel that we have a 
responsibility to continue to monitor this very, very closely 
and be on top of it.
    Ms. Sanok, what do you think, based on your experience, 
what the critical elements of any future transition plan should 
be so that we can ensure that these women's rights are 
sustained as we leave?
    Ms. Sanok. I think it has been covered today quite a bit, 
the importance of integrating women at every level of the 
justice system and the rule of law system so whether they are 
Afghan National Security Police, if they are in the legal 
system both as prosecutors and defense attorneys, as judges, 
because when you do appeal cases, or you do have someone who 
has been accused counteraccusing and then not having the 
resources to defend yourself, as a woman it really is a problem 
in referring the cases to higher courts where there are no 
women present.
    I think from a transition plan from the Department of 
Defense perspective, they do have to do a lot better at 
recruitment and retention of women throughout the ranks. And I 
say that because they are not even at 50 percent of what their 
goal was, and their goal was about 3,000 women in the Afghan 
National Security Forces, I believe--I would have to check my 
number--and they are at less than half of that.
    Mrs. Roby. We are not even close, right?
    Ms. Sanok. And when you look at the roles that the women in 
Afghan National Security Forces are playing, and they are 
cooks, they are administrative support. They are not on the 
front line. They are not like the female engagement teams that 
are predominantly U.S. and coalition forces out there talking 
to the people. They are behind the scenes, and I think I that 
is a real problem. So from a transition plan perspective, I 
think doing a much better job of recruiting, placing, and 
retaining people along the spectrum of the justice system is--
--
    Mrs. Roby. It is very important. Thank you.
    And I have gone over, so I will now turn to the ranking 
member.
    Ms. Tsongas. Thank you. And before we come to the end, I 
just want to thank you for creating the opportunity for this 
hearing, because I think it has been--it is so important, and 
we appreciate it very much, your testimony.
    I sort of have a sort of laundry list of issues. You know, 
one is I do think the recruitment and retention issue is very 
important. And as Congresswoman Davis said, there was a fund 
set aside to help encourage that. I am sorry that Mr. Sedney 
has left us, because he suggested that it is an ``either/or.'' 
In reality, I think it is a ``both/and.'' And you can't cut out 
the funding to recruit women and expect that you are going to 
have better luck at the long-term security of the country. It 
is not an ``either/or.'' That is just a comment.
    And I appreciate also Congresswoman Speier's--all of our 
concerns, really, as to what is going to happen, and that at 
the very least we should look for broader asylum opportunities 
for women, Afghan women. But the great reality is that there 
are many, many women in the country who will never know, never 
have the opportunity, never have the resources, never be able 
to take advantage of it. So we have to remain, I think, very 
mindful of that, as I know we all do.
    I have always been struck when we have been there, you 
know, that there is a very engaged community of women, very 
polished, very educated, taking great advantage of the 
opportunities that have developed. But then that is not the 
great bulk of women in Afghanistan. And yet we have met some 
remarkable women, very impoverished, who have taken great--
taken advantage of the microlending, for example, to have 
modest, modest businesses. And I did happen to see a program on 
PBS [Public Broadcasting System] talking about in Pakistan 
similar efforts, where you have microlending that women take 
advantage of; they have these small businesses that bring 
resources into the family. It cuts down on domestic violence 
because the pressures on the family unit are relieved by women 
being able to be part of supporting a family. So I think we 
have seen some of the positive outcomes through our investments 
there.
    I wanted to ask you a question, though, and that is as we 
proceed to drawing down and seek through a peace process, 
perhaps, that I echoed your comments about women's rights are 
not a tradable good, and I want to know what you would see as 
the alarm bells, where you would see--if women are not at the 
table as part of the process, if you don't see people standing 
up strongly enough for some of the gains, what would you see as 
real alarm bells? And what should we in Congress and the 
international community do to push back on that? I ask that of 
both of you.
    Ms. Sanok. I will take a first crack at it.
    The real alarm bells for me, it goes down back to the 
number of incidents being reported. Now, a dip in reported 
incidents doesn't mean that it is not happening, it just means 
that there are fewer reports. And so peeling that back a little 
bit, making sure that cases that are coming forward are being 
prosecuted, and if all of a sudden a great percentage of the 
cases or the complaints are being dropped, whether through 
coercion or incompetence or actual malice on behalf of the 
court system or the prosecution, I think it is worth watching.
    The number of women on the streets walking around, feeling 
safe enough to walk around outside of their home, it is not 
significant now, but if it goes down, I think that is a good 
indicator of a greater loss of freedom.
    I think another key indicator for me would be I am not 
hearing the women's voices; when CODELs stop, what happens? 
There will be vastly fewer CODELs after 2014. And so who are 
those women going to talk to? Who will they get support from? 
So I think there need to be a couple of forums that are more 
enduring and aren't necessarily tied to, you know, Mrs. Davis 
is visiting, or Representative Roby is visiting, or 
Representative Tsongas is visiting to make sure that something 
is a little bit more enduring, because I think not hearing the 
voices is the number one indicator for me.
    Ms. Lockhart. I agree with others who say that increasingly 
I think it is going to be harder to have the data across the 
country to know what is going on, and therefore the warnings 
are going to be harder to detect.
    Having said that, I think there are organizations, National 
Solidarity Program is one, Human Rights Commission is another, 
which are collecting data. So we can continue to pay attention 
to them and watch the trends very, very closely.
    And in terms of what kind of responses that Congress might 
take to protect them, especially as some of these warning bells 
appear, I think actually continued support to some of these 
program that will continue to be able to operate across the 
country will be important.
    I think second, thinking in terms of scenarios ahead of 
time, I think we could imagine three or four very different 
outcomes post-2014, and be prepared to think through what kind 
of responses we might be prepared to put into place.
    I think perhaps reframing our language so it is not talk of 
leaving, but it is talk of a different type of commitment to 
the country as reflected in the Strategic Partnership Agreement 
that has already been signed, because there will continue to be 
some form of commitment, and I think if Afghans hear the 
language of leaving, it heightens concerns even more than might 
be warranted. And then I think it is continuing. I mean, in 
South Korea, in Germany, troops have been kept for many 
decades. Is there a case for continued commitment, including 
some form of troop presence, not in a combat role and not in a 
way that is vulnerable to the loss of life in the future, but 
some form of commitment?
    Mrs. Roby. Thank you. And I was just going to make one 
comment before I got to Mr. Scott.
    I remember early on, in our first trip 2 years ago--my 
first trip 2 years ago, hearing Mrs. Davis and Ms. Edwards, who 
went very early on, about not seeing one female on their first 
trip, and the stark differences of where we are now. So I find 
it interesting that you use that as a warning sign.
    Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. And I will be very brief 
with this so that the other Members have time to speak as well.
    And I, again, will go back to the one trip that I have had 
to Afghanistan so far. And I remember through the whole trip 
there was only one little girl that we saw. And obviously over 
there one of the things that you give the children is a pen to 
reinstill the value of education and other things, and I 
remember quite well that we gave her a pen, and it was promptly 
taken from her. And so we gave her another one, and it was 
promptly taken from her. We gave her another one, and I don't 
think that one was taken until probably after we left.
    But there is a cultural issue there. I was glad to hear Ms. 
Sanok talk about the fact that it is not just the women, it is 
the boys and especially the younger ones that we have got to 
work with to change that culture.
    So thank you for being here today. And I will yield the 
remainder of my time so that other Members can ask their 
questions.
    Mrs. Roby. Thank you, Mr. Scott.
    Ms. Speier.
    Ms. Speier. Thank you to both of you for your participation 
this afternoon.
    I am concerned about to whom our foreign aid, to whom our 
support should go once we do leave when we want to make sure 
that money gets to women's programs, women and children's 
programs, health programs in Afghanistan, a country that you 
certainly know has been plagued with a great deal of fraud and 
abuse.
    Ms. Lockhart. I think it is necessary to pay close 
attention, as you are, to parsing between those programs that 
work and those programs that don't. There are many programs 
that do work. Some of them have been managed by USAID. Others 
of them, and some of the greatest successes, have actually been 
had through the World Bank.
    The World Bank moved early on, in early 2002, to set up the 
Afghanistan Reconstruction Trust Fund and a set of national 
programs, which are countrywide programs that reach across the 
country. One of these USAID joined with. It is the National 
Health Program that has shown remarkable successes. It has held 
up actually regionally, or even globally, as one of the great 
successes. And I think this one, in terms of basic healthcare 
access, is one of those that is well managed and deserves 
continued support. The second is the National Solidarity 
Program, and the third is the Education Program. And these 
three are managed through the Afghanistan Reconstruction Trust 
Fund. It has policy engagements of the ministries, but it is 
NGOs [non-governmental organization] that do the 
implementation.
    Ms. Sanok. I can briefly answer this question. I was 
looking through the USAID Web site earlier today and noticed 
that there are four gender and participant training programs, 
23 education programs, and 32 health programs. I was looking 
specifically for things dealing with everyday life involving 
women and girls. And I think you have to be careful with USAID 
programs because they do send out large grants, and then you 
are not quite sure who the subcontractors or who the 
subgrantees are.
    I, too, am very concerned about who is actually receiving 
the money and where exactly it is going, and I would encourage 
you in your congressional oversight role to really peel back 
the onion a bit on who are the implementing partners--the World 
Bank is excellent, Asia Development Bank is excellent, the Asia 
Foundation is also quite good; but to talk to the USAID a 
little bit about they are going to have an enduring presence in 
this country. One, I agree with Ms. Lockhart, it does need to 
be made clear to the Afghans that we are not leaving at the end 
of the 2014, although the troop presence will be drastically 
reduced. But really take a look at some of the USAID 
implementing partners and understand who their partners are, 
and I think it would be a little bit shocking.
    Ms. Speier. Well, actually I am all too familiar with how 
shocking the wastefulness has been in Afghanistan. The SIGAR 
[Special Inspector General for Afghanistan Reconstruction] just 
presented to the Oversight and Government Reform Committee, of 
which I am a member, and then did a policy briefing to the 
Watchdog Caucus, and it is abominable, it is abominable what 
has gone on, and it has gone on under our noses. And we have 
done nothing to those subcontractors or those contractors that 
have abused the power and the money. They continue to get 
contracts, and oftentimes they are U.S. contractors. So you 
make a very good point.
    We just had a celebration last week to give the 
Congressional Gold Medal to Muhammad Yunus, who, as you know, 
is recognized for the microfinancing. And I believe, Ms. 
Lockhart, you might have been--or maybe it was you, Ms. Sanok, 
who talked about microfinancing for women in Afghanistan. He 
pointed out that since he undertook his effort, where he gave 
something like $27 out to 40 women in Bangladesh, that program 
has expanded to just an astronomical--100 million people across 
the planet with $40 billion worth of money, something like 
that. It was amazing.
    So in terms of microfinancing, what has your experience 
been in those efforts in Afghanistan, particularly to women?
    Ms. Sanok. In my experience it has been very positive. 
Microlending and microfinance, whether it is a $25 loan, a $50 
loan, when I talk to--they call them AWOBs, Afghan women-owned 
businesses. It has been very successful. To a one, I believe 
they have all been repaid, and I think that is a fantastic 
return, and reinvesting into the system.
    Mrs. Roby. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you. Acknowledging that political 
transition and the security transition are inextricably linked, 
I would like to talk a little bit about the upcoming elections 
and what each of you see as some potential dangers, whether it 
is security, whether it is women not being able to stand for 
elections, or perhaps women not feeling safe enough to come out 
to vote. I want to make sure that women are participating in 
that political process so that their voices can be heard. Could 
you speak to those issues?
    Ms. Lockhart. Certainly. And also to reflect very much 
Representative Speier's concern over contractor oversight. I 
very much welcome and admire efforts to continue oversight and 
accountability because it has been a very shocking shortfall.
    On the issue of elections, I think two parts to this. One 
is the process. And tragically in the 2009 elections, 
sufficient attention was not paid to the preparations necessary 
for a minimally free and fair election, and, therefore, we saw 
the massive fraud and abuse of that process and failure to 
provide for women's access.
    I think there is enough time, starting now, to make those 
preparations, and goes across the gamut from civic education 
arrangements to transportation; in short, minimizing the fraud. 
And there are ways to do that. A group of Afghan political 
parties have come together to make recommendations. I think 
those recommendations are good and can and should be followed.
    The other part of this is the outcome part, and I think 
there is a possibility that we might see something of a unity 
team, a group of actors come together with a reform agenda for 
the country. And if that happens, I think then the outlook for 
the country could improve quite dramatically. If it doesn't, 
and we see the kind of splintered field that we saw last time, 
or a failure of the parties to agree on a minimum set of rules 
of the game, then the risks will be much higher. So continued 
attention to this process as it moves forward will be critical.
    Ms. Sanok. I agree with Ms. Lockhart that this is a--there 
is plenty of time in the lead-up to this election to take some 
steps necessary to better ensure that it is a free and fair 
election. Will it be completely free and fair? Probably not.
    I do think that this is an election period where you will 
have still significant U.S. troop presence motivating folks to 
vote. So I have fewer concerns about this upcoming election 
than I will about the election when we are not there. So I 
agree wholeheartedly with everything that Ms. Lockhart has laid 
out.
    Ms. Duckworth. Would either of you be comfortable talking 
about women standing for election in Afghanistan and what the 
likelihood of them actually being recruited and standing for 
real positions? You talked a little bit, Ms. Sanok, about, you 
know, making sure they are involved in the judicial system. 
What about the legislative system?
    Ms. Sanok. Because there are a certain number of seats set 
aside for women, I think there is an interest on everyone's 
part to fill those seats, and so I think there is going to be 
some recruitment to find women to fill those seats. Now, who is 
doing the recruiting and who is pushing them is going to be 
interesting to watch, what kind of women will be filling those 
seats.
    So from a participatory perspective, I think there will be 
women in the Parliament going forward, at least in this 
upcoming election. Beyond that, what kind of person and what 
kind of principled stances will she take is open to real 
examination.
    Ms. Lockhart. I agree very much. Because the Constitution 
reserves 25 percent of those seats for women, I think we 
certainly will see an active number of--well, a considerable 
number of women very engaged in the political process and its 
acceptance more in the urban than the rural areas.
    I think on the other side, women in senior positions in the 
armed forces and in government across the administrative 
positions, in the judiciary, is extremely important, and this 
is where both Congress and the administration, I think, can 
do--already do, but can continue to do a lot to encourage that 
those positions are kept and expanded.
    I had an experience of working closely with a female 
Director of Treasury for the Afghan Government and the Director 
of Budget for the entire Afghan Government. They had problems 
in the first few days establishing authority with the men who 
worked for them, but once they had, they were extremely 
effective professionals and had no problem. But it was getting 
them into position in the first place, and this is where I 
think the U.S. Government can do an enormous amount to ensure 
they continue to have access to those roles.
    Ms. Duckworth. How do you feel about the safety of these 
women once they are in these roles? You know, I am worried that 
those two women that you mentioned, for example, they have 
established their authorities. After U.S. forces are gone in 
2014, I want to be sure that they are safe, because safety and 
security, these women need to be able to continue to go to 
work, and I have real fears that they will be subject to 
attacks.
    Ms. Sanok. The State Department has programs in place for 
judicial security. I think similar programs should be in place 
for women in positions of influence and power. And so if I were 
talking to State Department people, I would encourage them to 
not only take judicial security very seriously, but also the 
security of women, again, in these particular positions.
    Ms. Duckworth. Thank you, Madam Chair.
    Mrs. Roby. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you. Thanks for being here. I am sorry I 
missed your comments earlier, but I wondered if you could 
comment. We have had an opportunity to meet with a number of 
Parliamentarians; in fact, there are certainly have been 
Parliamentarians who have come here as well. And it is always 
interesting to me because they are seeking our support to help 
with the kind of issues that, you know, we--we are--we kind of 
seek help from one another, networking, how do I influence 
other people, et cetera.
    Whether it is through the State Department or NGOs, how can 
we best work with existing organizations that are there? 
Obviously, we are not going to be there on the ground, but in 
the future, that might be helpful. Is there a role, and how 
might we be communicating in some way? What do you think they 
need?
    Ms. Lockhart. I do believe that the kind of Congress-to-
Parliament exchanges and other kind of civic-to-civic, people-
to-people programs can play an enormous role if we look at the 
way that cities have been twinned, schools have been twinned, 
and the work that Spirit of America has been doing. Perhaps to 
find increased ways to link veterans, U.S. veterans, who have 
served within Afghanistan to the areas and families that they 
encountered over the coming years would be, again, an enormous 
way to keep the commitments and solidarity between the nations 
enduring.
    Ms. Sanok. I would echo that. A Parliamentary exchange, I 
think, is very appropriate in this particular respect.
    I would also say that there are some programs being run 
through the embassy, small grant programs, to encourage women's 
voices and gender equality. It is not as institutionalized as I 
think it probably should be, because, again, as we draw down in 
forces, and we shift to a more State Department-heavy, USAID-
heavy presence, we really need to use the power of those 
organizations to institutionalize things that are a lot more 
enduring than anything I have seen on the table right now.
    Mrs. Davis. Yeah. Well, thank you. I appreciate that.
    We were very aware that meeting only with Parliamentarians 
was not going to give us a very good picture of women in 
Afghanistan either, and that is why we went into a more rural 
area. We spent time in Qalat over a number of years and really 
saw a lot of progress. So if we sound like we haven't, we have 
seen great progress, and I think that may be why the level of 
frustration continues to be high fearing that those gains could 
be lost.
    Can you give a sense, I mean, do you think there is a 50-
percent chance that the gains might not be lost and that will 
continue, and that we might 2 or 3 years down the line see that 
some of these really exceptional people that we have had a 
chance to meet are able to carry on, or they have been stymied 
and stopped or maybe something worse? What chance do you give 
it?
    Ms. Lockhart. I would find it very hard to put a number on 
it, but I think if the political process is not one that trades 
away the gains, but is one that seeks to shore up the 95 
percent as great allies of this Nation with the right kind of 
building blocks of the political process; and if this, at much, 
much, much reduced cost and commitment than the one that we 
have seen, but if there is some continued commitment sufficient 
to ensure the confidence of the Afghan nation that it can 
secure its own people, if those two conditions hold, then I am 
confident in the future security of women. But those are two 
``ifs.''
    Ms. Sanok. They are two very big ``ifs.'' I think, again, I 
go back to the women that I have talked to who have run or been 
involved in or owned businesses, and, again, to a one, they all 
indicated their intent to leave, which--talk about a brain 
drain and kind of a confidence drain in the country.
    I disagree with what Secretary Sedney said earlier. I think 
we are losing leverage. So now is the time to put into place 
institutions and more enduring exchanges and contracts to be 
able to keep track, to monitor, to make sure that you have the 
relationships moving forward so that all is not lost.
    Mrs. Davis. Thank you very much. Thank you for being here.
    Thank you, Madam Chair.
    Mrs. Roby. Well, thank you. And to both of you, I think 
there are so many takeaways from today's hearing. I look 
forward to getting back to Afghanistan shortly, and several 
members of this subcommittee women will be on that CODEL, and I 
think then we will have some comparative information based on 
our own experience.
    But what you have presented here today, Ms. Lockhart, I 
appreciate your being positive, much more positive than I have 
been in some of my words lately. I again remain deeply 
concerned about this. It is my hope that in having this hearing 
today and coming back to this issue time and time again that we 
can draw others' attention to how critical this area is for the 
success of this country to be able to secure itself, but also 
for our national security interests at home and all of the 
service and sacrifice of our military, our men and women in 
uniform who have been the partners alongside people like you, 
to ensuring that these women do have--or have all the gains 
that they have.
    And so we really appreciate you taking the time to be here, 
and look forward to continuing this conversation whether in the 
committee room or not, outside.
    So thank you again, and thank you to all of the Members for 
being here. With that, we will be adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 25, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 25, 2013

=======================================================================
      
                     Statement of Hon. Martha Roby

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

                 Transitioning to Afghan Security Lead:

                        Protecting Afghan Women?

                             April 25, 2013

    Good Afternoon. I am delighted to convene this hearing on 
how the United States can ensure the safety and political 
freedom of Afghan women after responsibility for security is 
ceded to the Afghan government.
    There are many important issues Congress must consider in 
connection with Afghanistan: How and when should the United 
States responsibly transfer security responsibilities to the 
Afghans? What sort of residual U.S. forces should remain after 
that time? What functions must these forces be equipped and 
prepared to undertake?
    Women and girls in Afghanistan have made enormous gains 
since the United States and its allies toppled the Taliban 
government. In Afghanistan today, women and girls attend 
schools and universities, they hold elected office, they are 
present in the military and police forces, and they enjoy many 
personal freedoms that were suppressed during the earlier 
ruthless rule.
    While there have been many important improvements in the 
safety, security, and rights of women, more must be done. The 
hard-won rights and progress Afghan women and girls have 
realized during the last 11 years must not disappear once the 
U.S. reduces its forces in Afghanistan. Those planning the 
security transition and determining residual force structures 
must keep this in mind.
    The safety and security of women in Afghanistan is not a 
discrete topic unmoored from the balance of our security 
considerations. Rather, the condition of Afghan women is an 
important barometer of the success of our efforts. A safer 
Afghanistan with a functioning government responsive to its 
people and inhospitable to terrorists and extremists is better 
for all: for men and women, boys and girls.
    This is a deeply personal topic. I have travelled to 
Afghanistan twice. I have been part of two delegations of 
female Members of Congress who have visited to see firsthand 
our military's impressive efforts in Afghanistan. I have seen 
the sacrifices they have made.
    I have also met many Afghan women on these trips. They were 
doctors, soldiers, and elected officials and girls who aspired 
to these and other positions. All were pursuing lives that were 
unthinkable under the Taliban. I have also met wives and 
mothers who have a degree of personal freedom and independence 
prohibited by the Taliban and others.
    I am a wife and mother who has had the right and privilege 
to pursue an education, career, and elected office. I do not 
want Afghan women to face a future where their successes and 
security is jeopardized. I fear this would be the case if 
Afghanistan reverts to the Taliban's control, or a more strict 
and oppressive government otherwise takes root there.
    As the United States continues to work with the government 
of Afghanistan to determine the future size and role of our 
forces there, the continued promotion and protection of the 
right of Afghan women and girls must not be forgotten nor 
pushed aside as a bargaining chip.

                     Statement of Hon. Niki Tsongas

   Ranking Member, House Subcommittee on Oversight and Investigations

                               Hearing on

                 Transitioning to Afghan Security Lead:

                        Protecting Afghan Women?

                             April 25, 2013

    Good afternoon, Secretary Sedney, General Shields, Ms. 
Sanok, and Ms. Lockhart. Thank you for appearing before our 
Subcommittee today. I look forward to your testimony and 
appreciate your experience.
    I want to echo Chairman Roby's remarks about the importance 
of this hearing. It is quite timely in a number of ways. Both 
our Committee and the SASC recently heard testimony from 
General Dunford on our evolving strategy to draw down from 
Afghanistan. I have long supported bringing our troops home 
from Afghanistan as quickly as possible, and was in favor of an 
even more expedited timeline than the President. But, I also 
believe we must put in place a plan that does this responsibly 
and safely, and which does not sacrifice the vital gains which 
have been made by women. A 2011 poll found that 86% of surveyed 
Afghan women were concerned that a Taliban-style government 
could return after the withdrawal of the international 
community.
    While every drawdown requires tradeoffs and tough choices, 
I completely agree with what Ms. Lockhart said in her 
testimony, that ``women's rights are not a tradable good.''
    Since becoming a member of Congress, I have had the honor 
of visiting Afghanistan four times. I have been fortunate to 
visit, in particular, with some of our ``military moms'' 
serving in Afghanistan, female soldiers who have children back 
home. Congresswoman Roby and I are going back to Afghanistan 
soon and hope to meet with Afghanistan women as well as more 
``military moms.'' The ever-increasing participation of women 
in our military demonstrates the important contributions women 
are making to our efforts in Afghanistan and around the world. 
It also stands in stark contrast to the involvement that Afghan 
women are able to have in their country's public life. For a 
safe, stable, and secure Afghanistan to emerge, women must be 
fully included in Afghan society and government.
    Two years ago, I visited a school where over one thousand 
young Afghan girls cycled through each day. When we asked them 
what they wanted to be when they grew up, the answers we heard 
were ``doctor, lawyer, teacher.'' These young women felt 
optimistic about opportunities that were previously unheard of 
for women in Afghanistan. Ensuring that these young girls 
continue to have access to these opportunities is not only good 
for the future of Afghanistan, it is good for the United 
States, as well, so that we can help ensure a more peaceful and 
just future there, and the way in which we move forward will 
impact our moral authority around the globe.
    As we reduce our military presence in Afghanistan, the U.S. 
must be cognizant of how we will ensure that women continue to 
have a seat at the table and that the nascent gains are not 
abdicated. Progress has been made in some areas. For example, 
27% of the Afghan parliament is female. However, much more can 
be done in other areas, such as recruiting women into the 
Afghan National Army and police force, where they are very 
poorly represented. In December of last year, just before we 
considered last year's Defense Bill, we were reminded of the 
tenuous position of women in Afghanistan when the acting head 
of women's affairs in an eastern province was assassinated as 
she traveled to work.
    I worked for inclusion in the bill of a provision, Section 
1233, in that bill, which requires the Department of Defense to 
produce a plan to promote the security of Afghan women and 
girls as it withdraws from the country. It would encourage the 
recruitment of women as members of the Security Forces and 
requires the Department of Defense to report back on its 
progress towards meeting these goals. I know it is not due 
quite yet, but I look forward to receiving it from the 
Department and any preliminary observations you can discuss.
    I look forward to our discussion. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 25, 2013

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MRS. ROBY

    General Shields. The Family Response Unit (FRU) program is an 
Afghan Ministry of Interior program and is not being eliminated. Over 
300 Afghan personnel remain assigned in all 34 provinces and large 
districts. Currently, 22 contractors provide advisory support to the 
FRU program. Due to drawdown limitations affecting the contractors' 
security, logistics resupply, and effective FRU mentor auditing/
oversight, NTM-A decided to de-scope the advisory contract. However, 
the FRU program will remain an active Ministry of Interior Program. 
[See page 9.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. TSONGAS
    Mr. Sedney. NTM-A has no data from the MOI or MOD on attrition by 
gender. The ministries measure attrition as a percentage of the entire 
force, and do not break this data out according to gender. [See page 
10.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Sedney. The number of Women in the Afghan National Security 
Forces is as follows:

        Afghan National Army: 416 (as of April 18th, 2013).
        Afghan National Police: 1521 (as of April 18th, 2013).
        Afghan Air Force: 44 (as of April 18th, 2013). [See page 13.]
    Mr. Sedney. There is no specific program within our Armed Forces 
currently that focuses solely on female service members training/
mentoring Afghan women. However, there are a number of key and 
successful partnerships and programs currently ongoing that facilitate 
direct mentoring of Afghan women at the strategic and tactical level.
    Currently at the strategic level there are advisors at the Ministry 
of Defense, Afghan Defense University, the Female Training Battalion at 
Kabul Military Training Center, and the Ministry of Interior. These 
positions are staffed through NATO Training Mission Afghanistan (NTM-
A), United Nations Development Program (UNDP), and Non-Governmental 
Organizations. The DOD AFPAK Hands program specifically contributes 
female program members to serve as advisors/mentors in a number of 
Afghan Ministries.
    Most recently UNDP launched a mentorship pilot program that is 
functioning in 4 provinces (Jalalabad, Herat, Kabul, and Mazar-e-
Sharif). The program is supported by a consortium of members to 
include, Afghanistan Public Policy Research Organization (APPRO), 
Afghan Women's Skills Development Center (AWSDC), Justice for All, 
Medical Afghanistan, and Women for Afghan Women (all Afghan 
organizations funded by NTM-A). This program was developed to 
facilitate professional growth and to address issues faced by female 
members of the Afghan National Police. At the tactical level, Female 
Engagement Teams (FET) continue to support operations with a secondary 
effect of providing mentorship and assistance to Afghan women, both 
within and outside of the Afghan National Security Forces. The 
relationships developed by this support element and the issues they 
have identified have helped focus regional efforts in the development 
of feasible women's assistance programs. Members of the FET are 
identified by their individual services. [See page 13.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER
    Mr. Sedney. We have passed your concerns on the State Department, 
the U.S. Government lead for asylum-related issues, and asked that the 
appropriate official take appropriate action on your proposal. [See 
page 16.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MS. DUCKWORTH
    Mr. Sedney. As discussed earlier in my testimony, and in the 
previous 1230 Report on Stability and Security in Afghanistan, the 
United States promotes the recruitment and rights of women in the ANSF 
through several programs.
    U.S. activities in Afghanistan do not, however, include the hiring 
and firing of ANSF personnel, or authority over the ranks and positions 
of individuals within the ANSF. Afghanistan is a sovereign country, and 
the United States does not have the legal authority to interfere 
directly in their military personnel decisions. ISAF does often advise 
the ANSF on personnel matters. However, to impose upon the Afghans to 
``put females at the highest levels'' of the ANSF would be an 
unprecedented level of interference in their internal personnel 
decisions. This type of interference would likely generate a strong 
negative reaction from leaders across the ANSF.
    Authority in the ANSF is based more upon personal contacts and 
informal networks than it is in many Western nations. A woman who had 
been ``put'' in a position at the highest levels of the ANSF as a 
result of U.S. pressure would likely be resented and treated poorly, 
and would have little real authority. This could do significant harm to 
the cause of promoting women within the ANSF. The current ISAF mission 
is ending in 2014, and it is unlikely that women who have been ``put'' 
into high office within the ANSF would be able to retain their status 
after this time. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 25, 2013

=======================================================================

      
                  QUESTION SUBMITTED BY MS. DUCKWORTH

    Ms. Duckworth. What are U.S. forces doing to provide necessary 
support to the Government of the Islamic Republic of Afghanistan to:
        <bullet>  increase recruitment of women in the ANSF;
        <bullet>  ensure female mentors for women in the ANSF;
        <bullet>  monitor how women are assigned and utilized by their 
        superiors in the districts and provinces; and
        <bullet>  address the institutional barriers to recruitment and 
        retention (such as lack of sex-segregated facilities, pervasive 
        sexual harassment, etc.)?
    Acknowledging that the political transition and the security 
transition are inextricably linked--can you explain how U.S.-led 
Coalition Forces are working with the Government of the Islamic 
Republic of Afghanistan on security preparations for the upcoming 
presidential election (currently scheduled for April 2014)? 
Specifically, what is being done to increase the number of female 
security personnel capable of staffing women's voting stations?
    Mr. Sedney. Improving the recruitment of women into the ANSF, their 
status and treatment within the ANSF, and the ANSF's treatment of 
female civilians across the country is important to the Department of 
Defense. However, recruitment of women into the ANSF will remain a 
serious challenge, given Afghanistan's history, culture, and society. 
The U.S. has many efforts to increase the number of women in the ANSF, 
mainly through the NATO Training Mission-Afghanistan's (NTM-A) Afghan 
National Security Force (ANSF) training and advising programs. ISAF has 
Gender Advisors, who educate personnel, ensure that women's rights and 
security are factored into decisions, and coordinates the gender-
related efforts of their subcommands and external international 
organizations, NGOs, and governmental organizations.
    As a result, gender training is now in place across much of the 
ANSF, harassment and violence against women in the ANSF are being 
addressed, educational projects for women are being established, and 
political will is present in certain areas.
    NTM-A promotes female recruitment and gender integration in its 
interactions with the ANSF. To help increase the recruitment of women 
into the Afghan National Army (ANA), and safeguard women's rights, the 
Afghan Ministry of Defense (MOD), with assistance from NTM-A, has begun 
to stand up the Directorate of Human Rights and Gender Integration 
(HR&GI). The MOD assigned a Major General as the director and an Afghan 
Air Force (AAF) Colonel to the deputy position; both are actively 
working to improve the rights of women and to increase the 
Directorate's manning authorization from five to 36 positions. The 
number of women taking the test for acceptance into the National 
Military Academy of Afghanistan (NMAA) increased from 47 to 97 in the 
last six months. The Afghan Ministry of Interior (MOI) also conducted a 
recruiting campaign for Special Operations Forces and received 34 
female applicants, and accepted seven.
    The recruitment and retention of women in the ANA and ANP is also 
an element of the U.S.-Afghanistan Bilateral Commission's Democracy and 
Shared Values Working Group. The Embassy, in coordination with ISAF, 
also regularly engages the Afghan Ministry of Foreign Affairs, MOI, and 
MOD on this issue to emphasize the importance of women in the ANSF.
    As women graduate from ANA and ANP training courses, NTM-A advisors 
are helping to find female graduates appropriate assignments. NTM-A 
Gender Integration Officers conduct site visits of ANA and ANP 
recruiting and training centers, analyzing assignments for ANSF women. 
Female ANSF recruits have previously faced problems getting uniforms 
and boots that fit, but this issue has subsequently been resolved 
without additional funding. NTM-A advisors worked with the ANA and ANP 
Chief of Logistics to advise on planning, projecting, and ordering 
smaller sizes for the female recruits through the same system male 
uniforms are ordered.
    With robust assistance from NTM-A advisors, the MOD is working to 
establish courses on women's history, gender-based customs, and gender-
based harassment for ANSF personnel. The objective of this effort is to 
have the Afghans develop these courses based on historical values, 
Qur'an passages, and cultural context.
    ISAF, MOD, and MOI have a large number of personnel and programs 
aimed at protecting women's rights and promoting women in the ANSF. 
Additionally, the MOI signed an order to prevent sexual harassment in 
the ANSF while continuing human rights and gender training. ISAF sent a 
mobile training team (MTT) to Herat to train policewomen, and the ABP 
has conducted similar training, helping to make fielded female ANSF 
personnel more effective. Several other organizations, including UNAMA 
and European Police (EUPOL), also provide gender-related
training.
    NTM-A gender-integration officers coordinated with ISAF Joint 
Command (IJC)-Female Engagement Teams (FET) to build the gender-
integration network by sharing information throughout different 
organizations and levels. The members of this network have the lead 
responsibility for gender issues in their organizations. This network 
has over fifty personnel working in all Regional Commands (RCs), 
including three in RC-N, two in CFSOCC-A, 17 in RC-E, 11 in RC-S, three 
in RC-SW, fourteen in RC-W, four in RC-N, and one in RC-C. NTM-A and 
IJC collaboration includes highlighting lessons learned, and exchanging 
current projects and upcoming events to support, such as graduations, 
training, or International Women's Day.

    Election Security

    Helping Afghans achieve a peaceful transfer of authority in 2014 is 
one of the U.S. Government's highest priorities in Afghanistan. The 
U.S. Government encourages government and political opposition leaders 
to build consensus around candidates broadly representative of 
Afghanistan's ethnic and political diversity. The United States 
provides technical advice and support, consistent with international 
commitments. U.S. embassy leadership meets with President Karzai and 
his advisors, the Independent Election Committee (IEC), Parliament, the 
political opposition, and civil society organization leaders to discuss 
prioritized actions and decisions to be carried out before election 
day. The credibility of the elections hinges on the decisions and 
implementation of electoral reforms that incorporate internationally 
accepted practices. Decisions and reforms include creating an 
independent mechanism for resolving electoral disputes, and passing 
legislation to reinforce Afghanistan's electoral institutions. The 
United States urges consultation in these efforts among President 
Karzai, Parliament, the IEC, the political opposition, and civil 
society to help ensure that decisions ultimately will have buy-in from 
the Afghan population.
    In conformance with the overall security transition, ISAF will 
maintain a low profile to avoid perceptions of international influence 
or interference in Afghan sovereign responsibilities. The ISAF Campaign 
Plan includes an appendix which outlines actions ISAF will be prepared 
to take only when and if requested by GIRoA. ISAF support will be 
confined to logistics, intelligence, route clearance, and in extremis 
support. ISAF will consider providing quick reaction forces across 
Afghanistan for international community election observers. As a 
contingency, ISAF may deploy forces in the event the ANSF are not able 
to provide for the safety of Coalition personnel or members of the 
international community involved in the election. The U.S. Force 
Management Level (FML) of 34,000 forces for the election period is 
structured to maintain operational security through a potential 
elections unrest period (February to June 2014). Coalition Forces will, 
together with their Afghan advised counterparts, be able to provide a 
rapid in extremis response, in the event the local security 
deteriorates beyond the ANSF's ability to control it.

    Ms. Duckworth. What are U.S. forces doing to provide necessary 
support to the Government of the Islamic Republic of Afghanistan to:
        <bullet>  increase recruitment of women in the ANSF;
        <bullet>  ensure female mentors for women in the ANSF;
        <bullet>  monitor how women are assigned and utilized by their 
        superiors in the districts and provinces; and
        <bullet>  address the institutional barriers to recruitment and 
        retention (such as lack of sex-segregated facilities, pervasive 
        sexual harassment, etc.)?
    Acknowledging that the political transition and the security 
transition are inextricably linked--can you explain how U.S.-led 
Coalition Forces are working with the Government of the Islamic 
Republic of Afghanistan on security preparations for the upcoming 
presidential election (currently scheduled for April 2014)? 
Specifically, what is being done to increase the number of female 
security personnel capable of staffing women's voting stations?
    General Shields. NATO Training Mission Afghanistan (NTM-A) has 
provided one Gender Advisor to mentor the Human Rights, Gender and 
Child Rights Directorate at Ministry of Interior (MOI) who conducts 
outreach to assist with gender integration across all functional areas 
to include recruitment. Engagements have been conducted with a number 
of key Afghan departments in order to emphasize the importance of this 
subject. The Afghan Ministry of Defense (MOD) has started a working 
group to review gender integration policy and develop new recruiting 
policies.
    The majority of efforts to provide female mentorship are occurring 
at the ministerial level and within the higher echelons of the Afghan 
National Army (ANA) and Afghan National Police (ANP). These efforts are 
not nested within one singular female mentoring program.
    A mentor has been provided for the ANP Senior Enlisted Non 
Commissioned Officer (NCO) from the MOI Gender Division. She is working 
to enhance the quality of life and empowerment for female ANP NCOs. 
United Nations Development Program (UNDP) currently has a female police 
mentorship pilot program that is functioning in 4 provinces (Jalalabad, 
Herat, Kabul, and Mazar-e-Sharif).
    Within the ANA placements are based on decisions made within the 
General Staff at the MOD GSG1. The assignment process is the same for 
both genders. The process is the same within the MOI. MOI maintains job 
descriptions, and a tracker identifying the number of female police by 
location, with associated duty descriptions.
    MOD has made the designation of a facility/building a local command 
decision. MOI is in the process of addressing the issue of female 
facilities. Currently, 54 Family Response Unit locations (co-located 
with ANP HQ locations) have received additional structures/construction 
to facilitate offices/barracks for the FRU. All buildings that were 
constructed by NTMA have female bathrooms and facilities.
    Instead of using female ANP members, MOI plans on temporarily 
hiring 14-15K women from the private sector to be trained as security 
screeners for the approximately 7,000 polling centers. Elections 
security planning efforts continue with MOI serving as the lead 
security ministry.

                                  <all>

</pre></body></html>
